No.

IN THE
SUPREME COURT OF THE UNITED STATES

Phyllis Marie Knight also known as Dr. Phyllis Marie Knight-Bey, D.M.. - PETITIONER

vs.
JOHN CHATELAIN et. aL - RESPONDENT(S)

PROOF OF SERVICE
I, Dr. Phyllis Marie KnighfrBey ex-rel [PHYLLIS MARIE KNIGHT, do swear or declare that
on this day September//L 2020, as required by Supreme Court Rule 291 have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERI
and PETITION FOR WRIT OF CERTIORARI on each party to have the above proceeding
or that party's counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.

Defendant No. I
JOHN C. CHATELAIN (State Attomey/Foreign Agent)
14707 California Street Ste. #1
Omaha, Nebraska 68154
(402) 333-8488 ext. #1
Defendant No. 2
LACHELLE A. PHILLIPS (Out-of-state citizen client for Defendant #1)
5460 Rowley Road #1304
San Antonio, Texas 78240
(210)440-2309

Defendant No. 3
SHERYL L. LOHAUS (Government Official/Presiding Judge of the 4th Judicial District, County Court)
1701 Famam Street
Omaha, Nebraska 68183
phone:(402) 444-5432
fax: (402) 444-6890
Submit to:
State Administrative Office of the Courts
1445 K. Street # 1220
Lincoln, Nebraska 68508
(402) 471-3730
Defendant No. 4
DANIEL A. ESCH (Government Official/Douglas County Clerk)
1819 Famam Street H08
Omaha, Nebraska 68183
(402) 444-6767
Defendant No. 5
ELIZABETH BUTLER (Government Official/City Clerk* City of Omaha)
1819 Famam Suite LC1
Omaha, Nebraska 68183
(402) 444-5550

I declare under penalty of perjury that the forgoing is true and correct.
Executed on September

(Signature

